OFFICE OF THE ATTORNEY GENERAL
CRIMINAL APPEALS

Concourse Center 4
3507 E. Frontage Road, Suite 200
Tampa. FL 33607-7013

 

ASHLEY MOODY Phone (813) 287-7900
ATTORNEY GENERAL ‘ 281-5500
STATE OF FLORIDA fstiy oH

 

November 17, 2020

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

RE: CASE NAME: Christopher Rahaim v. State of Florida
Case No. 20-6168

WAIVER
Dear Mr. Harris:
Respondent, State of Florida, does not intend to file a response to the petition in the
above captioned case, unless requested so to do by the Court. This is not a case in which
the death penalty has been imposed.
Please enter my appearance as Counsel of Record for all respondents in this case.

Sincerely,

ASHLEY MOODY
ATTORNEY GENERAL

Cc. of Bechard

Chief - Assistant Attorney General
Bureau Chief, Tampa Criminal Appeals
CarlaSuzanne.Bechard/@myfloridalegal.com

/gc

cc: Christopher Rahaim, #R02347, Gulf Correctional Institution, annex,
8501 Hampton Springs Road, Perry, FL 32348
